<html>
<title> - KOSOVO'S WARTIME VICTIMS: THE QUEST FOR JUSTICE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


            KOSOVO'S WARTIME VICTIMS: THE QUEST FOR JUSTICE

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             April 30, 2019

                               __________

                           Serial No. 116-28

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov
                       
                       
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
32-132 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3a4a557a594f494e525f564a1459555714">[email&#160;protected]</a>                              
                       

                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey     
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
KAREN BASS, California		     SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
AMI BERA, California		     LEE ZELDIN, New York
JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada		     ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California		     FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota	             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
COLIN ALLRED, Texas		     RON WRIGHT, Texas
ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas

                    Jason Steinbaum, Staff Director
               Brendan Shields, Republican Staff Director
                           
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Jahjaga, Atifete, Former President, Republic of Kosovo...........     8
Williams, Dr. Paul, Professor, Washington College of Law, 
  American University............................................    27
Bytyqi, Ilir.....................................................    53
Krasniqi-Goodman, Vasfije........................................    60

                                APPENDIX

Hearing Notice...................................................    86
Hearing Minutes..................................................    87
Hearing Attendance...............................................    88

    ADDITiONAL MATERIALS SUBMITTED FOR THE RECORD BY CHAIRMAN ENGEL

Written testimony of Mr. E. B....................................    89
Written testimony of Mr. Liri Loshi..............................    91
Written testimony of Mr. Liridon Markaj..........................    93
Written testimony of Ms. Ferdonije Qerkezi.......................    95
Written testimony of Ms. H. U....................................    98
Written testimony of Ms. N. N....................................   100
Written testimony of Ms. Shyhrete Berisha........................   102

 
            KOSOVO'S WARTIME VICTIMS: THE QUEST FOR JUSTICE

                        Tuesday, April 30, 2019

                          House of Representatives,
                      Committee on Foreign Affairs,
                                                     Washington, DC

    The committee met, pursuant to notice, at 10 a.m., in Room 
2172, Rayburn House Office Building, Hon. Eliot Engel (chairman 
of the committee) presiding.
    Chairman Engel [presiding]. Good morning, everyone. The 
committee will come to order.
    Without objection, all members will have 5 days to submit 
statements, extraneous material, and questions for the record, 
subject to the length limitation in the rules.
    Let me, first of all, welcome our witnesses.
    This morning we will take a look back at the wars that 
ravaged the Balkans two decades ago and shine a light on how 
the victims in Kosovo are still seeking justice so many years 
down the road. In this committee, I find it often helpful to 
look back and consider what was happening on the global stage 
at different times in history, and there was a lot going on 20 
years ago.
    In 1999, as we geared up for the new millennium, the euro 
was established; three former Soviet Bloc countries, Hungary, 
Poland, and the Czech Republic, became NATO allies; Boris 
Yeltsin resigned as President of Russia, turning over the reins 
of power to Vladimir Putin. And there was perhaps no more 
precarious situation than in the Balkans. The Bosnian War had 
recently ended, and the Dayton Agreement, concluded only a few 
months earlier, was only then entering its earliest 
implementation phase.
    But in Kosovo, things were much, much worse. After 10 years 
of crackdowns, violations of human rights, and severe ethnic 
discrimination, Slobodan Milosevic, the butcher of the Balkans, 
began a campaign to forcefully expel the ethnic Albanian 
population of Kosovo. In doing so, he displaced nearly 1 
million people to countries around Kosovo, killed more than 
11,000 ethnic Albanians, and initiated a policy leading to the 
rape of thousands of Kosovar women. Some 2,000 ethnic Serbs 
also lost their lives in the war.
    I would like to specifically call attention to a 2017 
report from the Belgrade-based Humanitarian Law Center, HLC, 
titled, ``The Cover-up of Evidence of Crimes During the War in 
Kosovo: The Concealment of Bodies Operation.'' Now, according 
to HLC--this is what it said--``Since 2001, mass graves 
containing the bodies of 941 Kosovo Albanians, mainly 
civilians, killed outside combat situations in Kosovo during 
1999, have been found in four locations in Serbia. The bodies 
found in mass graves belong not only to males, but also to 
females and children as well. The cause of their deaths in most 
cases was a gunshot wound, mainly to the head, suggesting that 
the victims did not die in combat, but as a result of 
execution-style killings. The decision to conceal evidence of 
crimes committed was planned as early as March 1999 at the 
highest level of the government. No one has ever been held 
accountable before courts in Serbia for the large-scale 
operation of concealment of bodies of Kosovo Albanian victims 
in mass graves.'' I want to repeat that because it is really 
shocking. To this day, ``No one''--20 years--``no one has ever 
been held accountable before courts in Serbia for the large-
scale operation of concealment of bodies of Kosovo Albanian 
victims in mass graves.''
    I also want to highlight the work of Human Rights Watch in 
calling attention to the victims of Belgrade's policy of 
forcible rape of up to 20,000 Kosovar women--20,000. In their 
report, ``Kosovo: Rape as a Weapon of `Ethnic Cleansing,' '' 
the Human Rights Watch laid out the case starkly. ``The 
research found that rape and other forms of sexual violence 
were used in Kosovo in 1999 as weapons of war and instruments 
of systematic `ethnic cleansing'. Rapes were not rare and 
isolated acts committed by individual Serbian or Yugoslav 
forces, but rather were used deliberately as an instrument to 
terrorize the civilian population, extort money from their 
families, and push people to flee their homes. Rape furthered 
the goal of forcing ethnic Albanians from Kosovo.''
    But, to this day, 20 years later, there has been little to 
no justice for the victims. Those who lost loved ones or who 
were sexually assaulted themselves have been offered virtually 
no avenues to confront the perpetrators. Yes, the U.S. mission 
in Kosovo examined the crimes, but they did nothing to secure 
justice for the victims.
    EULEX considered several cases, but the effort was largely 
fruitless, leading to only a small number of convictions. The 
International Criminal Tribunal for the former Yugoslavia, the 
ICTY, indicted Milosevic, who later died in prison, but it has 
not achieved much else for the other Kosovars who suffered from 
his army's war crimes. Regardless of the fact that the vast 
majority of war crimes during the Kosovo War were committed by 
forces under Belgrade's command, the same number of Kosovar 
Albanians were indicted by the ICTY as Serbs, seven from each 
country.
    No one thinks people who committed war crimes should get 
away with their actions, but nothing underscores the unbalanced 
international justice arising from the Kosovo War more than 
this false equivalency. The United States and our European 
allies could have pressed for justice for the victims of 
Milosevic's brutality, but, for the most part, we failed to 
take any substantive action. Even worse, in my opinion, the 
United States forced Kosovo to create a so-called ``Special 
Court'' to address allegations of violations by members of the 
Kosovo Liberation Army, the KLA. So, let's see what this means.
    The Special Court addressed allegations of violations of 
the Albanian minority by members of the Kosovo Liberation Army, 
but did not do anything to the Serbs who committed such heinous 
acts of violence. Very, very unbalanced. No one is saying the 
KLA was somehow perfect and did not commit bad acts of its own, 
but let's be crystal clear. The vast majority of crimes--the 
vast majority--war crimes and crimes against humanity, were 
committed by the Yugoslav and Serbian security forces. That is 
a fact. There is no other way to look at what happened.
    No matter, said the United States and the EU, Kosovo needs 
a Special Court, and we proceeded to force it upon them. 
Regrettably, I went along with this, so the pressure could come 
off Pristina and the country could return to normal. All the 
while, did the State Department come down nearly as hard on 
Serbia, which committed the overwhelming bulk of the war 
crimes? Did we and our European allies demand that, in exchange 
for progress in EU ascension, Belgrade must address post-
conflict justice? No, we did not. We dumped it all on Kosovo. 
Hence, Kosovo has a Special Court to investigate itself. 
Shameful and wrong, in my opinion.
    But, my friends, there may be a silver lining. The law 
creating the Specialist Chambers allows the prosecutor to 
indict anyone who committed war crimes in Kosovo during the 
war. But, to this day, it seems the court is only pursuing 
Albanians. I would suggest that anyone involved with this court 
pay attention right now. This committee will be monitoring the 
court closely to see that it addresses the perpetrators of all 
crimes which can be prosecuted under its jurisdiction, not only 
ethnic Albanians.
    In the bigger picture, I think the justice for the victims 
of the Kosovo War will never be achieved if we--and by ``we,'' 
I mean our State Department and the European Union--continue to 
sweep the whole thing under the rug. That is why this hearing 
is so important. It is critical that we hear firsthand from 
those who were brutalized at the hands of Belgrade in 1998 and 
1999 and from those who are pressing for justice.
    We have an outstanding panel of witnesses this morning. I 
look forward to introducing them and hearing their testimony.
    But, first, I will yield to our ranking member, Mr. McCaul 
of Texas, for any opening remarks he might have.
    Mr. McCaul. Thank you, Mr. Chairman.
    Before we start this morning's hearing, I want to address 
the developing situation in Venezuela. The chairman and I both 
got a briefing from Ambassador Bolton. I think things are 
moving very rapidly, hopefully, in the right direction. I 
continue to stand with the Venezuelan people and Interim 
President Juan Guaido, and urge Maduro to step down to allow 
peaceful transition in Venezuela and refrain from violence 
against his own people. The Venezuelan people need the support 
of the international community now more than ever, and I hope 
my colleagues here from both sides of the aisle can stand 
together in support of this cause for freedom and democracy.
    Now to the subject of this hearing, the war in Kosovo was a 
terrifying conflict that brought tremendous suffering to the 
Balkans. Over the course of a year and a half, ethnic tensions 
and violence forced families from their homes, took the lives 
of innocent civilians, and left an untold number of people 
scarred for life.
    Many of us remember the gruesome images shown across our TV 
screens or printed in the newspapers. Refugees were crammed 
into trains and sent off to camps. A spokesman for the United 
Nations Refugee Agency at the time said he was reminded of 
``the darkest days at the end of World War II with refugees 
streaming in all directions.''
    We learned of horrifying war crimes that included torture, 
rape, and a program of ethnic cleansing carried out by Serbian 
forces. And by the end, there were 13,000 people that were dead 
or missing and over 1.2 million people had been displaced. It 
was a full-blown humanitarian crisis.
    This would be the last major conflict of the 20th century 
on a continent that is no stranger to war. And while an 
operation carried out by NATO helped bring the hostilities to a 
close in June 1999, the war never actually ended for many of 
its victims. The horrors have stayed with the people who were 
forced to endure them. Some survivors have yet to experience 
justice for the crimes that were committed against them. 
Although we have pledged to never forget what happened in 
Kosovo 20 years ago, there are people who feel as if they have 
already been forgotten.
    Too many war criminals and perpetrators have yet to be 
punished for their evil actions. And while this is a sad 
reality, we can still take action and do something about this. 
This hearing will allow us to discuss what happened and review 
ways to seek the justice that needs to be served.
    This morning we will hear directly from our witnesses who 
can share their stories about what happened to them and their 
family members. Their truths must continue to be told.
    And I want to personally thank each of the witnesses here 
today, and all of us commend you for your strength, your 
courage, your commitments to peace.
    Of note, I want to also welcome Ms. Goodman from my home 
State of Texas.
    I am hopeful that your testimoneys will shed light on these 
atrocities that were committed and inspire others who have yet 
to share their stories.
    I would like to, finally, thank Chairman Engel for holding 
this important hearing, and I urge my colleagues to find ways 
in which we can work together to find the justice that has so 
far eluded the victims of this conflict.
    And with that, I yield back.
    Chairman Engel. Thank you, Mr. McCaul, for your statement 
and thank you for your involvement.
    Let me, first, introduce the witnesses. I am pleased to 
again welcome these distinguished witnesses to the Foreign 
Affairs Committee.
    First of all, we are honored by the presence of the former 
President of Kosovo, Atifete Jahjaga. President Jahjaga has 
played a critical role in raising the stature of the victims of 
Belgrade's policy of forcible rape of Kosovo's women. Her work 
has helped raise awareness of how victims of wartime rape for 
too long sat in shame and silence. She helped to de-stigmatize 
the wounds, so that people could discuss their pain and be 
compensated.
    Among those who will share with us her tragedy today is 
Vasfije Krasniqi-Goodman. Ms. Krasniqi-Goodman made history 
when she became one of the first victims of Belgrade's campaign 
of sexual assault to speak publicly about what happened to her. 
I am deeply thankful for her courage and willingness to 
describe her, regrettably, unsuccessful attempts to seek 
justice for the crimes she endured.
    A true retelling of the horrors of the Kosovo War would not 
be complete without Ilir Bytyqi. The murder and mass burial of 
his three brothers--all American citizens, by the way--the 
murder and burial by Serbian security forces, that represents, 
in my opinion, one of the worst crimes of the conflict.
    Mr. Bytyqi, whom I know, thank you for sharing with the 
committee your family's experience.
    Finally, I would like to welcome Paul Williams, a professor 
at the American University's Washington College of Law. My 
daughter is a proud graduate of that school. He has worked with 
issues affecting Kosovo for many years.
    Our witnesses today, and so many others, still seek 
justice, and I look forward to Professor Williams describing 
what has happened with legal efforts in the past and what 
avenues still remain available.
    I will now recognize our witnesses for 5 minutes, each to 
summarize their testimony. We will start with President 
Jahjaga.

  STATEMENT OF ATIFETE JAHJAGA, FORMER PRESIDENT, REPUBLIC OF 
                             KOSOVO

    Ms. Jahjaga. Honorable Mr. Chairman of the committee, 
honorable ranking member, honorable members of the Foreign 
Affairs Committee, ladies and gentlemen, as I speak here today, 
I carry the burden of hundreds of thousands of lives that have 
been shattered by the war in Kosovo. They want their stories to 
be heard, and they demand justice for the crimes perpetrated 
against them. It is not a burden to take lightly. We would like 
to use this occasion to share their stories and seek support 
for our ongoing quest for justice.
    Around this time 20 years ago, NATO intervened in Kosovo to 
stop the ethnic cleansing of the Albanian population 
perpetrated by the Milosevic regime. We are forever grateful to 
the United States for its leadership in ending the war and 
opening a new chapter for Kosovo. Since then, we have been 
going through the tremendous task of dealing with grief and 
trauma, rebuilding our homes, building democratic institutions, 
and seeking justice, all at once.
    Our dignity and humanity were stripped away 20 years ago. 
The Albanians in Kosovo, as the democratic majority, were the 
target of some of the most grievous human rights violations. 
The Serbian police and military under the Milosevic control 
carried out widespread and systematic human rights abuses. 
Other ethnic minorities were caught up in between, and although 
not the target, suffered similar crimes.
    During an ethnic cleansing campaign, in less than 2 months, 
nearly 1 million Albanians were expelled from Kosovo. Inside 
Kosovo, in a crusade of killings, Serbian forces rounded up 
Albanian men and women of all ages in a door-to-door operation 
to summarily execute them. They perpetrated indiscriminate 
violence, separating families. They destroyed the social fabric 
of our community.
    During the Kosovo War, there were more than 100 mass 
killings, 74 of which were recorded. Over 13,000 people were 
brutally murdered in the war, according to the Humanitarian Law 
Center, including 1,230 children under 18 whose lives and 
dreams were instantly shattered, 80 percent of them Albanian. 
There are still over 1,600 missing. An estimated number of 
20,000 women were raped, according to the Centers for Disease 
Control. Two-thirds of the homes and objects of historic value 
were burned to ashes.
    The devastation of war made a return to normalcy difficult. 
The war did not only influence interethnic relations, it also 
broke communities. The use of rape as a tool of war was meant 
to make war everlasting.
    I have met hundreds of women survivors of sexual violence. 
Their fearful experience is still vivid. They still suffer from 
physical injuries and severe PTSD. For many years, due to the 
stigma unjustly placed upon them, they were isolated, deprived 
of the life of opportunities, unable to even provide for 
themselves and their families.
    As a result, the vast majority of them live in dire 
economic conditions and in need of support. Still, every single 
one of them told me that, in order to move forward, they need 
recognition and justice more than anything else.
    While today very few cases have been prosecuted for this 
crime, there has been no conviction, not a single one. Ladies 
and gentlemen, the only way to help these women and men move 
past the horrors of the war is the justice. Kosovo has 
established a Special Court to ensure the mechanism of justice 
for any wrongdoing on our part. This has not been easy for us. 
It is beyond our comprehension that there have been more 
indictments issued for alleged crimes of the Kosovo Liberation 
Army than for the crimes of the Serbian forces committed in 
Kosovo, which were part of a plan, a blueprint drafted, 
orchestrated, and executed by the Milosevic regime.
    The main perpetrators of the most horrific crimes are still 
moving freely in Serbia and elsewhere. Serbian authorities even 
deny that atrocities in Kosovo occurred and continue to use 
Kosovo as a propaganda for internal political gains.
    The shadow of the war still lingers over Kosovo. It is 
present in the vivid memories and severe trauma of the 
survivors. It is present in the agony and desperation of the 
families of the missing people. It is present in the memory of 
the loved ones lost to the power lust of the brutal regime.
    Having experienced the devastation of war, all we want is a 
future in peace. That is why we are committed to the dialog to 
normalize relations with Serbia. We have already made all of 
the comprehensible compromises in order to reach peace with 
Serbia. From the Rambouillet Peace Agreement in 1999 to the 
Ahtisaari Plan in 2007, Kosovo has made painful compromises. 
However, under no circumstances will the people of Kosovo ever 
allow their hard-fought-for independence, serenity, or 
territory integrity to be placed into question.
    Justice for the crimes committed during the Kosovo War is 
long overdue, but it is not to be linked with a dialog with 
Serbia. Justice is not a matter of a negotiation. It is a 
legitimate right of everyone hurt by the war. This matter is 
bigger than politics and all of us. Justice is a precondition 
for the long-lasting peace. We owe it to the loved ones whom we 
lost and the survivors still living with the open wounds. And 
above all, we owe it to our future generation for them not to 
go through what we did.
    That is why today I call upon the esteemed Members of the 
U.S. Congress to take a stand for justice, to hold Serbia 
accountable for the crimes and ethnic cleansing in Kosovo.
    I thank you for the honor.
    [The prepared statement of Ms. Jahjaga follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. Thank you, President Jahjaga.
    Dr. Williams?

 STATEMENT OF PAUL WILLIAMS, PROFESSOR, WASHINGTON COLLEGE OF 
                    LAW, AMERICAN UNIVERSITY

    Dr. Williams. Good morning. Good morning, Chairman Engel, 
Ranking Member McCaul, and members of the committee. It is a 
honor to testify before you this morning. It is also a 
privilege and an honor to share this platform with the other 
individuals who will be testifying before the committee.
    It is clear from their written testimony that the Kosovo 
Albanian victims of the conflict in Kosovo suffer from an 
accountability gap. During the course of the Yugoslav wars, 
armed forces associated with the Serbian regime carried out 
genocide, mass murder, torture, mass rape, mass deportation, as 
a means to achieve Serbia's military and political objectives. 
This campaign of terror and destruction was designed and 
implemented at the highest levels of the Serbian regime. It 
required tens of thousands of individuals willing to perpetrate 
such crimes, and it left hundreds of thousands of victims in 
its wake.
    Every victim of an atrocity is entitled to justice, and 
every perpetrator should be held accountable for their actions. 
It is equally important, however, not to embrace the mantra all 
sides are responsible, which can create a false sense of moral 
equivalence among the parties.
    During the Kosovo conflict, the forces associated with the 
Serbian regime were responsible for the vast majority, upwards 
of 80 percent, of the atrocities. They displaced nearly 1.4 
million people--that is 90 percent of the Kosovo population--
killed over 11,000 civilians, and raped over 20,000 women.
    Yet, the United Nations Yugoslavia Tribunal indicted an 
almost equal number of alleged Serbian regime perpetrators and 
alleged Kosovo Liberation Army perpetrators. None of the 
indictments of the alleged Serbian perpetrators included 
charges of rape or sexual violence as a standalone atrocity. In 
total, the U.N. Yugoslav Tribunal only convicted six Serbian 
regime perpetrators for the atrocities in the Kosovo conflict.
    The domestic hybrid mechanisms created by the U.N. mission 
in Kosovo, and subsequently, by the European Union rule-of-law 
mission, disproportionately indicted Kosovo Albanians by a 
factor of 10 to 1, and only convicted four Serbian regime 
perpetrators, again, with no charges of rape as a standalone 
atrocity crime.
    In 2015, the international community exerted substantial 
diplomatic pressure on the government of Kosovo to create the 
Kosovo Specialist Chambers and the Specialist Prosecutor's 
Office. The general diplomatic characterization of the court is 
that it is designed to solely prosecute ethnic Albanians who 
served in the Kosovo Liberation Army. If this characterization 
is correct, then the court essentially grants de facto amnesty 
to perpetrators who committed atrocities on behalf of the 
Serbian regime, and it closes off effective justice for 
hundreds of thousands of victims in Kosovo. No other 
international or hybrid criminal tribunal has been ethnically 
based or has denied justice to such a substantial number of 
victims.
    The accountability gap created by the actions of the 
international community and the United States derives from the 
20-years-old approach of the European Union to the conflict in 
the former Yugoslavia: accommodation and appeasement of the 
Serbian regime. This approach requires maintaining a perception 
of moral equivalence among all the parties to the conflict. 
However, false moral equivalence, the creation of ethnic-based 
courts, the denial of access to justice for victims, and the 
fostering of ethnic injustice undermines the legitimacy of 
accountability mechanisms and their ability to promote 
reconciliation, which is essential to create a durable peace.
    The myopic focus of the international sponsors of the 
Specialist Chambers is disappointing for two reasons. First, as 
detailed in my written statement, the statute adopted by the 
Parliament of Kosovo does not actually preclude the prosecution 
of all individuals responsible for crimes committed in Kosovo, 
and thus, could serve as a vehicle for justice for every 
atrocity victim, regardless of ethnicity.
    Second, the statute provides for state-of-the-art victim 
representation and witness protection, which are key to the 
successful prosecution of the conflict-related sexual violence. 
The court has the potential to be an ideal mechanism to bring 
justice for the 20,000 victims of rape in Kosovo.
    In conclusion, to accomplish the restoration of the 
integrity of the Specialist Chambers, the United States should 
work with the government of Kosovo to affirm and, if necessary, 
clarify that the mandate of the court covers all crimes 
committed in the territory of Kosovo and is not limited to 
prosecuting members of a specific ethnic group of alleged 
perpetrators.
    If necessary, the United States can work with Kosovo to 
amend the statute to make this mandate unambiguously clear. The 
United States should also work with the government of Kosovo to 
encourage the Specialist Prosecutor's Office, a part of the 
judicial system of Kosovo, to prioritize the investigation and 
prosecution of rape and other conflict-related sexual violence.
    Thank you for the opportunity to speak this morning.
    [The prepared statement of Mr. Williams follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. Thank you, Dr. Williams.
    Mr. Bytyqi?

                    STATEMENT OF ILIR BYTYQI

    Mr. Bytyqi. Chairman Engel, Ranking Member McCaul, members 
of the committee, thank you for hosting this important hearing 
and inviting me to testify.
    My name is Ilir Bytyqi.
    Chairman Engel. Mr. Bytyqi, could you just pull the 
microphone a little closer to your lips?
    Mr. Bytyqi. Sure. Thank you.
    My name is Ilir Bytyqi. On behalf of my family and other 
victims of war crimes committed during the Kosovo War, I am 
here to offer you the words of a simple message: victims cannot 
be ignored. If you want lasting peace in the Balkans, we cannot 
be ignored. If you care about justice, we cannot be ignored. 
And if you all you want is simply the truth, we cannot be 
ignored. As I hope to make clear today, this history is still 
being written. This committee can help shape its course.
    I come from an American-Albanian immigrant family in New 
York. I grew up between the United States and Kosovo with lots 
of siblings, including my brothers Fatose, Ylli, Agron, and 
Mehmet. We were a close family, one for all, all for one. But 
six boys in New York, imagine the headaches we gave my mother.
    In the late 1990's, we started hearing about what was 
happening in Kosovo. We were devastated to see images of our 
friends/families being expelled from their homes and murdered 
in their villages. We were worried sick thinking about my 
mother, sister, and my brother Fatose who were in Kosovo at the 
time.
    Around this time, we got word from the American-Albanian 
community in New York that people were going over to fight 
against President Milosevic's barbaric campaign and ethnic 
cleansing. Ylli, Agron, and Mehmet went without hesitation. 
They were not scared. The last thing I told them was, ``Be 
safe. You know I expect you to come back.''
    Toward the end of the war, my brothers decided to stay in 
Kosovo and help with the rebuild efforts. One day, they agreed 
to go on a humanitarian mission to help some neighbors get to a 
safe zone. Eventually, Serbian police came in unmarked cars and 
in plain clothing and kidnapped my brothers. They took them to 
the other side of Serbia, to Petrovo Selo. Two years later, 
their bodies were found on top of a mass grave in Petrovo Selo 
with their hands tied behind their backs and bullet holes 
through the back of their heads. My brothers were sent to these 
killing grounds because they were Albanians. They were murdered 
because they were Americans.
    This has devastating my family. For the past 20 years, my 
brother Fatose and I have been fighting for justice because the 
Serbian government will not. In 2015, then-Prime Minister 
Alexander Vucic admitted as much. He looked my brother Fatose 
in the eye and said in an uncertain manner, ``In my mind, only 
two people are responsible for these murders.'' Then, he named 
the names.
    This is not some unsolved mystery. It is a simple matter of 
will. Then, as the Prime Minister, and now as the President, 
Alexander Vucic protects war criminals who murdered my 
brothers. President Vucic has no shame about this. He has 
threatened my family for our efforts. For 5 years now, he has 
promised members of this committee and the United States Vice 
President that he would resolve this case. Earlier this year in 
Munich, President Vucic bragged to Serbian media that he told 
members of this committee that NATO officials should be 
extradited to Serbia, not the war criminals who murdered the 
American citizens.
    This is a systematic problem with Serbia. The government 
consensually protects war criminals, creating a political 
culture that intimidates witnesses and victims. Convicted war 
criminals are regularly given a hero's welcome when they exit 
the ICTU prison. Recently, President Vucic had the audacity to 
call Slobodan Milosevic ``a great leader''.
    Serbian war crimes answers are failing in many ways. They 
issue very few indictments. The few indictments they allow are 
low-level suspects and direct perpetrators. Superior officers 
are shielded from scrutiny. Human Rights Watch, Amnesty 
International, the Humanitarian Law Center, the European 
Commission, the European Parliament, and others, have each 
noted this defect.
    Recently, Serbia did not have a leading war crime 
prosecutor for 18 months. When the Serbian Parliament finally 
elected one, the candidate won based on the pledge of 
prioritizing cases of Serbian victims, not the cases like ours.
    These and many other problems are illustrated in lack of 
effort and will to resolve war crimes. Mr. Chairman, this 
effort affects other issues that I know you care deeply about. 
There are still over 1300 missing persons from the war, many of 
whom have not been found because of the coverup operations that 
occurred at the end of the war. The main suspect in the Bytyqi 
case and principal responsible over many of these covered 
operations, to date, Serbia has not prosecuted a single person 
for the coverups.
    The good news is that concrete things that the Congress, 
the European Union, Serbia, and even Kosovo can do can help 
these causes. First of all, I urge you to do the following:
    Pass the H.Con.Res. 32 resolution regarding the case that 
was recently introduced by Republican Lee Zeldin, Chairman 
Engel, and Republican Grace Meng. When the Congress speaks, 
Serbia listens.
    Make sure that the European Union counterparts prioritize 
these issues, as Serbia is currently in the midst of their EU 
ascension process. To date, Serbia has been allowed to open 
relevant chapters just by making empty promises. This must 
stop.
    Consider legislation to give the President and my family 
more tools to pursue justice in this case, where Americans are 
killed abroad by foreign governments. Our advocates at Pretrial 
Rights International have forwarded a legislative proposal to 
some of your offices regarding these issues. We would be happy 
to share with any other members of the committee.
    Second, I urge the European Union to do one simple thing: 
start prioritizing accountability for war crimes during both 
the Serbia ascension process and during the related dialog 
between Pristina and Belgrade. There are a number of ways to do 
this.
    Mr. Chairman, I strongly support your call to not allow 
Serbia to enter the EU until it cleans up its act. Serbia 
should not be allowed to enter the EU until it proves that it 
can and will complete prosecute of mid--and high-ranking war 
criminals and those responsible for the coverup operation.
    Additionally, the international community has taken 
creative approaches to work with the countries in the region 
that have similarly faced problems, such as locating trials 
outside the country borders. It is now time for the EU, the 
United States, and the international partners to consider 
similar options for Serbia.
    Also, the EU should not shy away from difficulties, but 
relate issues like justice sector cooperation between Serbia 
and Kosovo. Both countries need to cooperate in all types of 
cross-border criminal investigations. The EU should make sure 
that they have agreement in place.
    To Serbian leaders, I urge you to change your course. There 
is no shame on facing one's past, only honor. Until Serbian 
politicians/leaders support their efforts to honestly confront 
Serbia's past, Serbia will never become a great nation that we 
all know and hope it can be.
    Finally, we are truly grateful for the many recognitions 
that the Kosovo government has given to my family and other war 
crime victims, but the Kosovo government can do more. It should 
make war crime justice in Serbia and regional cooperation in 
war crimes cases a frontline issue in the dialog with Serbia. 
As a sovereign nation, Kosovo also has the right to take real 
action in these cases. We urge you, the international 
community, to start prioritizing these issues.
    Thank you for your consideration of my testimony.
    [The prepared statement of Mr. Bytyqi follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. Thank you, Mr. Bytyqi.
    Ms. Krasniqi-Goodman?
    Push the button and move the microphone closer, too.

             STATEMENT OF VASFIJE KRASNIQI-GOODMAN

    Ms. Krasniqi-Goodman. Is this good?
    Chairman Engel. We will see.
    Ms. Krasniqi-Goodman. Thank you.
    Chairman Engel. Keep talking.
    Ms. Krasniqi-Goodman. Honorable Chairman Engel, Honorable 
Ranking Member----
    Chairman Engel. A little louder. If you can just move it 
closer to you? Yes. Just speak directly into it and it will 
pick up your voice.
    Ms. Krasniqi-Goodman. Honorable Chairman Engel, Honorable 
Ranking Member McCaul, honorable members of the Foreign Affairs 
Committee, ladies and gentlemen, I want to thank you all very 
much for giving me the honor of sharing my story with you. I 
hope it will shed some light on the depth of the issues that 
you are considering here today.
    On April 14, 1999, when I was only a 16-year-old child, a 
Serbian police officer burst into my family's home. He was 
looking for my father and my brothers, despite the fact that 
they were not there. I was with my mother, my aunt, and my two 
cousins. The police officer ordered us to show him our IDs. 
After taking a look at my ID, he kept it and he said I had to 
go to the police station to give a statement about the men of 
our household.
    At this moment, my uncle walked over from his house and 
simply asked, ``Why are you taking our girl?'' The police 
officer replied, ``Don't anybody move or I'll shoot 
everybody.'' My mom told him to take her in my place. ``No, 
she's a child,'' replied the police officer. ``She will not be 
able to lie about the whereabouts of her father and brothers.''
    The Serbian police officer then ripped me away from my 
mother's arms and took me to the Serbian village nearby. He 
walked me into an empty house just off of the main road and 
threw me onto a stack of corn that was piled against the house. 
I started to yell and I screamed at the top of my lungs. That 
is when he took me inside of his car and he started raping me.
    I remember everything. I was held at the gunpoint. He 
abused me and raped me repeatedly. I was shocked and exhausted. 
I lost consciousness. When I regained consciousness, I cried 
with no control, begging him to kill me. ``No,'' he said, ``I 
will not because you will suffer more this way.'' He was right; 
I have suffered greatly since then.
    I remember he had a bandage on his left hand, and he was 
saying that is where the Liberation Army shot him and he was 
taking revenge on me. Every time that I screamed, he threatened 
to take me to an area full of Serbian forces where more men 
would rape me. After he was done assaulting me, he went into a 
local store and left me alone in the car. I know the village 
was primarily Serbians, so I was terrified to make a move.
    Shortly after the policeman left, an older man came out of 
the same store and walked toward me. He forced me outside of 
the car and took me to an unfinished house. I distinctly 
remember this man. He was an old man and he was crippled. There 
in that house he raped me.
    A few hours later, I was taken back to my village and left 
on the street. I walked through the village cemetery, hoping 
that my life would end just right then and there because I do 
not want to go home to explain to anybody what has just 
happened to me.
    They told me not to tell anybody what had just happened. 
They said to tell they was at the police station giving a 
statement about the whereabouts of my father and my brothers.
    Somehow I managed to make it to my uncle's house. I did not 
have to explain anything what happened to me. By judging in the 
conditions they saw me, they knew that no one takes a 16-year-
old child to the police station for a testimony just to return 
her a few hours later with scratches, bruises, and torn up.
    The next day I reported my case to the Kosovo Liberation 
Army. Later, I reported it to the United Nations Mission in 
Kosovo. I also reported everything to the European Union Rule 
of Law Mission in Kosovo.
    The perpetrators of this crime, they were identified 
eventually. However, 20 years have passed. My torturers are not 
being held accountable for the crimes that they have done and 
they are still at large.
    There are 20,000 women and men who suffered crimes of war, 
sexual violence in Kosovo. All they want is justice. All I want 
is justice.
    Although today I live a happy life in Texas as a proud wife 
and as a proud mother of two daughters who were born in the 
United States, and, thankfully, they will never have to 
encounter the tragedies that I experienced, I will never have a 
peace with my past until justice is delivered.
    Thus, today I call on the Representatives of the U.S. 
Congress to address the impunity of war crimes and human rights 
abuses that were committed in Kosovo by taking immediate action 
to seek justice for all survivors.
    Thank you.
    [The prepared statement of Ms. Krasniqi-Goodman follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. Thank you, Ms. Krasniqi-Goodman, and thanks 
to all our witnesses.
    Let me start with Ms. Krasniqi-Goodman. This room got very 
quiet. Thank you, first of all, for the courage of telling your 
story. It is not an easy thing to have lived through, 
obviously, and it is a very difficult thing to be able to go 
public and tell everybody. But it is so important if we are 
ever going to get justice for what happened during the war in 
Kosovo. People like you and others, Mr. Bytyqi, have to have 
the courage to speak. So, I want to thank you personally. I got 
to know you a little bit last night at dinner.
    And I want to thank all of our witnesses. Thank you. Thank 
you so much.
    President Jahjaga, I have worked with you so much during 
these past several years, and thank you for your courage.
    Dr. Williams, you have always spoken the truth.
    And, Mr. Bytyqi, everyone in Kosovo knows the story of the 
Bytyqi brothers. Everyone knows the story, and we are not going 
to forget ever about your brothers. We are not going to stop 
until we seek justice.
    Let me start with President Jahjaga. Thank you for your 
service to your country and your efforts to raise awareness 
about the women who survived sexual violence during the Kosovo 
War. It is very difficult, even 20 years later, to come to 
grips with what was done to these women and to, sadly, say that 
we have had 20 years and we have not done right by them.
    Could you please share with the committee the ongoing 
struggles of the victims of wartime rape? And how can we assist 
your efforts to work with you in bringing people to justice?
    Ms. Jahjaga. Mr. Chairman, thank you very much one more 
time for giving a chance to us to be able to share with the 
United States lawmakers and the global audience how the justice 
has failed the victims of the war in Kosovo and what are the 
steps necessary to be taken in order to move forward.
    We want to bring forward the issue of the justice for the 
war crimes and the crimes against humanity committed by the 
Serbian regime, by the Milosevic regime, by the military 
police, and by the paramilitary forces of Serbia. We want to 
bring the justice for so many of the innocent who lost life. We 
want to bring the justice for so many of the survivors of the 
sexual violence. We want to bring the justice for so many of 
the missing people.
    Our dignity, Mr. Chairman, has been touched and our 
humanity, and we have been stripped of that 20 years ago. Many 
of the reports of the human rights and the verification reports 
have shown, and many of the testimoneys of the witnesses of 
these atrocities, and the crimes committed against humanity in 
Kosovo show that Kosovo, the ethnic majority of Kosovo have 
been violated and have been a target of some of the most 
grievous crimes and the violation of the human rights.
    The Milosevic regime wielded the absolute control over the 
Serbian police, military, and paramilitary forces that they 
have been ordered to conduct this series of the violations of 
the human rights. It was mentioned here that an estimated 
number of over 1 million people were made by force to leave 
their homes for the purpose of the ethnic cleansing. Only 
during the wartime, it was also mentioned here, over 13,000 
people have been killed and massacred. In between then, I want 
to repeat again, 1,230 of them children under the age of 18 and 
an estimated number of 20,000 women and men raped, where rape 
has been used as a tool of war.
    Only between March and April 1999, about 1 million people 
were forced to leave the country for the purpose of the ethnic 
cleansing, as you mentioned, Mr. Chairman, in the very 
beginning of this hearing today, toward the direction of 
Albania, Macedonia, and Montenegro, as the neighboring 
countries, for our people to search for safe haven. These were 
not only the countries that have received the refugees from 
Kosovo, but we are forever grateful to many of the countries 
and the nations, started from here, from the U.S., from 
Germany, Austria, and many countries within Europe as far as 
Israel, Australia, and New Zealand, that have opened their 
doors to offer the safe haven for the people which were facing 
the tremendous crimes and suffering during the wartime in 
Kosovo. And here it was mentioned that the Western world did 
not experience that type of the ethnic cleansing since the 
Holocaust from the World War II, and it is a true statement.
    And something that I really want to stop here, because it 
was mentioned, before I go to the survivors of the sexual 
violence. And I would like to use this opportunity to mention 
three more cases in the realm of several other crimes and the 
massacres that have been recorded also by the Humanitarian Law 
Center in Kosovo, which is a long list of those that I want to 
mention for the sake of this many lives that have been lost in 
Kosovo by name, starting from February 28th of 1998 to June 6th 
of 1999. And I want to go by every location of the crimes that 
have been committed here.
    It's Likoshan, Municipality of Gllogoc and Qirez, Prekaz i 
Poshtem, Lubeniq, Poklek i Ri, Rahovec, Shtutica, Grejqefc, 
Senik, Rezalla, Dubovc, Obri e Eperme, Racak, Rogova, 
Neighborhood II and III of Skenderaj, Kotlina, Brestoc, Goden, 
Ternje, Bellacerka, Krusha e Vogel, Krusha e Madhe, city of 
Suhareka, city of Fushe Kosova, Celina, Padalishta, Duzhnje, 
Samadrexha, Dardania Neighborhood in the city of Peja, Mamusha, 
city of Gjakova, Krushevc, Izbica, city of Podujeva, 
Samadrexha, Beleg, Polac, PaStatella, Joviq, Lubeniq, city of 
Gjakova, city of Fushe Kosova, city of Gjakova, Nagavc, Marina, 
Kralan.
    Chairman Engel. President Jahjaga, we will submit, without 
objection, all these names, so it will be in the official 
record.
    Ms. Jahjaga. Please.
    Chairman Engel. We will submit that.

    Chairman Engel. I just want to very quickly say one thing, 
and then, I will turn it over to Mr. McCaul. I have been to 
Kosovo many, many times. I have been there with my friend Harry 
Bajraktari and with others as well.
    I remember particularly in 1999 going to a city called 
Peja, and every Albanian in that city, which was an Albanian 
city, was forced out of their home. And as the people left 
their homes, the Serbian forces torched each home, burned down 
each home systematically one by one by one, until thousands 
upon thousands of homes were all burned.
    And someone presented me with pictures of every home in 
Peja burning or charred, and I kept that. I still have that on 
my dresser in my bedroom. So that every night it reminds me 
that there's still a lot of work to be done.
    The point that I want to make--and I guess it does not 
really require an answer--but anybody who commits horrendous 
crimes of war should be brought to justice. And we heard Ms. 
Krasniqi-Goodman having the courage to say what you have said, 
and thank you. And Mr. Bytyqi, your family, you know, I have 
been to Kosovo where the monuments are to your family, to your 
brothers. It is a well-known name.
    The thing that annoys me the most is that, whatever 
atrocities that were committed on either side have to be 
brought to justice, but there were so many atrocities committed 
against ethnic Albanians. It is not even near equality. And 
yet, when you look at what the international community has 
done, they have gone after Albanians much more than they have 
gone after Serbs, when there is not even an equality there. 
There were so many more atrocities committed against ethnic 
Albanians, and to sort of pretend that there is this moral 
equivalency is absolutely a disgrace. And as long as I have 
anything to do with it, we are going to make that point and to 
continue to demand that people who did the terrible things to 
citizens that we heard from Ms. Krasniqi-Goodman, that these 
people are brought to justice. So, I just want to say that.
    Mr. McCaul?
    Mr. McCaul. Thank you, Mr. Chairman.
    I want to say thank you to Ms. Goodman for your courage to 
come forward with that story. I know, as a former Federal 
prosecutor dealing with victims, it is hard to relive that 
experience.
    And, Mr. Bytyqi, your brothers, it never quite leaves, and 
it is PTSD of the worst kind. So, again, I want to thank you 
for coming forward.
    What I am kind of shocked by, Mr. Chairman is the fact that 
we had over 13,000 people killed, 1.2 million people displaced; 
it has been 20 years. We have a U.N. administration mission, 
some sort of U.N. court involved, and only six people have been 
convicted?
    And I think, Dr. Williams, you said that rape is not even a 
standalone crime that can be prosecuted.
    So, again, I want to thank you for having this hearing. I 
just find that completely unacceptable. So, perhaps, Madam 
President and Dr. Williams, can you tell us what has been going 
on over the last 20 years? Because those numbers just do not 
add up to me.
    Ms. Jahjaga. As I said earlier, we have an estimated number 
of about 20,000 women and men that have been raped during the 
wartime, where rape has been used as a tool of war. Like in 
every other case, like also in our case in Kosovo, there has 
been enormous stigma surrounding the survivors of the sexual 
violence. And the reason why the rape has been used as a tool 
of war by the police, military, and the paramilitary forces was 
to emasculate the men of Kosovo and to destroy the very fabric 
of our society.
    And their main intention was to have the war last much 
longer after it has officially ended. And they have achieved 
that because, for 20 years after the end of the war, we still 
have this very living evidence and the proof and the suffering 
among the survivors, each and every one of them which are 
living with these atrocities and with what they have gone 
through during the wartime.
    In many of those cases, the perpetrators of this horrendous 
crime, they were telling, even out loudly, that we are going, 
even though that the victims and the survivors were begging 
them to kill them after they committed those acts, they said to 
them that, ``No, we are going to leave you alive, so you can 
live with this thing forever and you can remember what we have 
done to you forever and for your entire life.''
    And every single survivor of sexual violence, no matter in 
which part of the country I have met--and I have met many of 
them throughout the country, hundreds of them--they seek only 
one thing. They seek for the justice. They seek for the 
perpetrators whoever done these crimes to be put forward to the 
justice and to be facing with the justice for the crimes that 
have been unjustly committed upon them.
    Unfortunately, this issue of the survivors of the sexual 
violence, as you rightly said, Mr. McCaul, they have not 
priority immediately after the end of the war, neither from the 
international mission, neither from the provisional 
institutions of Kosovo. Only the women activists were the open 
door to the survivors of the sexual violence to offer, starting 
from the psychological treatment and all the way down to the 
physical and toward the medical treatment of others. Only back 
in 2014, we, as the country, have started the institutional 
approach and care toward the survivors of the sexual violence.
    In that time, in my term as the President of the Republic 
of Kosovo, I established the National Council for the Survivors 
of the Sexual Violence, which opened a totally new chapter for 
the survivors for rape, their integration, rehabilitation, 
resocialization, and the access to the justice.
    I mentioned the access to the justice, which is very 
limited because, so far, we do not have a single perpetrator 
that has been found guilty for all those crimes.
    Mr. McCaul. And thank you for starting the National Council 
for Survivors.
    Ms. Jahjaga. And that is why we need--sir, there is a 
tremendous need to establish the Special Court in order to 
prosecute these cases of the war crimes and crimes against 
humanity and the crimes of the sexual violence used as a tool 
of war in Kosovo. I call upon this body, I call upon you, as 
the U.S. Congress, as the body that has proven so far and has 
lined up yourself in the right side of the history, and you 
have proven that 20 years ago, in regard with the intervention 
in Kosovo, to stop the war, to stop the genocide, and to stop 
the ethnic cleansing, to condition Serbia and to keep Serbia 
accountable for all of the crimes and atrocities that they did 
toward the innocent people of Kosovo.
    And it is really unjust to see that Serbia has a very open 
part toward Euroatlantic integration. And I want from this body 
to analyze all of the possible circumstances, to establish the 
type of Special Court the way that we have established in 
Kosovo for all of the crimes to be investigated by this body; 
at the same time, Serbia to be conditioned in their path toward 
the Euroatlantic integration.
    Mr. McCaul. And I look forward to working with the chairman 
on the idea of the Special Court.
    And, Dr. Williams, my time is limited, but the United 
Nations has wholly failed. I mean, as a Federal prosecutor for 
many years, this is incompetence. It is inept. It is not 
working. So, is this Special Court idea the answer?
    Dr. Williams. A Special Court with a clarified mandate is 
the answer. There are three reasons why the U.N. mission 
failed. The Yugoslavia Tribunal was timid and tardy in its 
indictments. When it indicted Milosevic, it said to itself, we 
have indicted the most senior political leader; take the box on 
Kosovo. They indicted a handful of other small individuals. 
They, then, had a 2-year trial, and he died during the trial. 
So, justice was not achieved.
    The U.N. mission in Kosovo, the EU mission in Kosovo simply 
were not equipped, were not interested, and did not exercise 
the jurisdictional mandate that they possessed.
    And then, the third reason, as I mentioned in my testimony, 
is this sense of moral equivalency. The European Union 
approach, which the United States falls into once in a while, 
is that we need to integrate Serbia into Europe. If we say all 
sides are responsible, the Croats, the Bosnians, the Kosovars, 
the Serbs, it is easier to accommodate and appease the existing 
regime in Serbia. You saw this at Dayton. You saw this at 
Rambouillet.
    And then, you have the Special Court, which is the worst 
possible court one could imagine, which is a court specifically 
designed only to prosecute one ethnic group for one set of 
crimes. That is its public characterization. A close reading of 
the statute--and you know, as a prosecutor, you look at the 
statute of the court; it can apply to all crimes and crimes 
committed by all perpetrators, and provide justice for all 
victims, but it is going to need direction.
    The important thing to remember is this court was created 
by the Parliament of Kosovo. The government of Kosovo possesses 
the authority to clarify, reframe, and, if necessary, amend the 
statute to make it crystal clear that it is not just an 
ethnically based court. And I would encourage--I will stop 
there.
    Mr. McCaul. Thank you.
    Chairman Engel. Thank you.
    Ms. Bass?
    Ms. Bass. Thank you, Mr. Chair. And let me just take a 
moment to thank you for your leadership on this issue for a 
very long time. I am aware of that.
    I did want you to continue on talking about the Special 
Court, to try to understand exactly what you think would be the 
best.
    And then, I also wanted to hear in terms of our role, the 
role of the United States, and whether or not you feel that we 
have played a positive role in terms of bringing the 
perpetrators of war crimes to justice.
    And, gentleman, I am sorry, I do not want to mispronounce 
your name. You described your brothers and you said they were 
Americans. And I just was wondering specifically what the U.S. 
did in your situation.
    So, I throw those questions out to the panel.
    Dr. Williams. The Special Tribunal has a unique founding. 
There was a report crafted by the Council of Europe, again, as 
part of this approach of moral equivalence. It focused on its 
face exclusively against crimes committed by ethnic Albanians, 
but it did acknowledge that there were a number of crimes 
committed by a number of parties, and that is important. It was 
not the emphasis of the report, but it did acknowledge that a 
lot of what we have spoken about here today, about the 
preponderance of the crimes being committed by the Serbian 
regime.
    The statute has an odd jurisdictional mandate. The 
jurisdictional mandate is for crimes related to the report of 
the Council of Europe. Now no lawyer would write a statute that 
would lay out the jurisdiction, and then, reference it to a 
report by a diplomat, but that is what you have.
    And then, there was tremendous pressure put on the 
government of Kosovo to adopt this, and then, to physically 
move the court to the Netherlands. And that is where the 
opportunity comes to turn this court around and make it 
successful. There are international judges, international 
prosecutors, and there is a list of defense attorneys that are 
both Albanian, Serbian, and international.
    The problem is, as lawyers, we look at the statute and we 
can say, yes, this can be used to bring about accountability 
for all perpetrators, for all victims, and provide justice for 
all witnesses. And in particular--I emphasized this in my 
written statement--it has state-of-the-art witness protection, 
which makes it ideal for prosecuting sexually related crimes 
for conflict abuse or conflict-related sexual violence.
    But the diplomatic momentum is that it is a narrow ethnic-
based court, and unless the U.S. Government takes some action 
or works closely with the Kosovars to provide them the 
political cover to reframe----
    Ms. Bass. What do you see that action being?
    Dr. Williams. This action would be a statement by the 
Department of State explaining what the mandate actually 
covers. The U.S. Government provides funding for this court 
because it is an internationalized, hybrid tribunal; to 
condition this funding on the proper interpretation of its 
mandate and to send necessary personnel and resources.
    And I will end with 10 seconds of, when I was at the State 
Department in the early 1990's, the Yugoslavia Tribunal was set 
up. The Americans moved money, they moved personnel, and the 
American Government was heavily involved in crafting the 
Security Council resolution, the mandate, the statute of the 
Yugoslav Tribunal, because America knew how important justice 
was going to be for durable peace. That has waned in these last 
few years and needs to be reinvigorated.
    Ms. Bass. OK. And I know I am just about out of time, but I 
would like for you to respond. And then, I wanted to know if 
Madam President had a comment she wanted to make.
    Mr. Bytyqi. Thank you.
    The Bytyqi brothers were all American citizens in the 
1990's when the atrocity of the Serbs, the Milosevic regime was 
put on the Albanian people in Kosovo. At the time, we had our 
parents there, my brother, younger brother, my sister, and my 
mother. And we heard that the American-Albanian community are 
gathering up together to go fight over with the support of the 
U.S. Government. And they went and fought. They did what any 
soldier would do, protect one from the other.
    And where the U.S. Government stands, the U.S. Government 
does do a lot, but the problem is Serbia.
    Ms. Bass. What was the response when they found your 
brothers' bodies? What did the U.S. Government do?
    Mr. Bytyqi. They did everything--they started, we started 
prosecuting. After a couple of years, there was a prosecutor. 
The U.S. Government--the Serbian government does not cooperate. 
They talk the talk, but they do not walk the walk. They will 
give you empty promises, which has been happening for the past 
20 years. The President himself, he keeps the criminals close 
allies to himself.
    Ms. Bass. OK. And then, Madam President, is there anything 
you would like to add?
    Mr. Bytyqi. Thank you.
    Ms. Bass. Thank you.
    Ms. Jahjaga. Thank you very much. And actually, I would not 
have more else to add than what Dr. Williams has already 
explained as regards the structure of the Special Court, which 
should only require some of the amendments of the current 
structure of the Special Court, which has been already 
established. And it was very well said here that no court 
should be established only in certain ethnic-based in there.
    Proofs and evidences are already there because they have 
been there for about 20 years. And these are very well-
documented by many of the international human rights reports. 
And it only has the political backing or the political support 
starting from here, from this body. It was very well-described 
by Dr. Williams, starting from your side toward the State 
Department, and then, back to the European channels.
    And again, about the necessary diplomatic pressure and the 
political pressure in the authorities of Serbia to be able to 
show the same readiness as we have shown in the case of Kosovo 
in establishing this certain crime, because this is not only in 
the interest of Kosovo because this is also in the interest of 
the long-lasting peace in the entire region of the southeastern 
part of Europe.
    It is not our intention to create a monster out of one 
nation of the Serbia. Our intention is to have Serbia and the 
Serbian authorities to hold accountable and responsible 
everyone who has committed these crimes toward the innocent 
people of Kosovo.
    Chairman Engel. Thank you. Thank you, President Jahjaga.
    Before I call on Mr. Chabot, I want to acknowledge all the 
people who came from all over the country, particularly from 
New York, to be here with us today to witness what is 
happening. I am very happy to see all of you, and I want to 
single out Councilman Mark Gjonaj, who is here in the audience 
as well. Thank you very, very much. And, of course, Harry 
Bajraktari and all the people that I know so well.
    Mr. Chabot?
    Mr. Chabot. Thank you very much, Mr. Chairman, and thank 
you very much for holding this hearing. I think this was very 
important for you to do so, and I know that you have personally 
been very involved in this issue for many, any years. And I 
think Members on both sides of the aisle respect your 
dedication and your commitment to it.
    I have not been to the region or to Kosovo nearly as many 
times as you have. I have been there, learned a lot when I was.
    And coincidentally, the Dayton Accords occurred just up the 
road from my district. I represent Cincinnati, Ohio. Dayton is 
just north of my district.
    And I saw you nodding, Dr. Williams. My first question, I 
wanted to ask you, and the ranking member, Mr. McCaul, I got a 
sense from him. He is as outraged as a lot of us are about how 
the U.N. and the world has really, I think, failed miserably in 
this. The Dayton Accords did get the war more or less ended, at 
least the physical shooting and the bombings, and that type of 
thing. But, in holding guilty parties accountable, it has just 
filed miserably.
    And hearing especially the two witnesses that felt this 
with their families, it is just horrific what you all had to go 
through, and the courage of you coming here again today puts 
all of us, I think on both sides, in awe that you are able to 
come before a committee like this and testify. So, thank you 
for doing that. It is important that the world hear this.
    So, I guess, Dr. Williams, let me just ask you this: as 
horrible as this has been, there are other atrocities and mass 
killings that have occurred. Obviously, Rwanda comes to mind, 
Cambodia, South Africa, as the reconciliation afterwards. Is 
there anything that we can learn from how they handled some of 
these things that did or did not happen here? Or what can we 
learn, because we need to learn as much as possible from this?
    Dr. Williams. Thank you.
    By way of full disclosure, my father's family is from 
Dayton, Ohio. So, we are kindred spirits there.
    The thing we can learn, there are two things we can learn 
about dealing with accountability and reconciliation. The 
first, it is important to understand the nature of the 
individuals that we have negotiated with to create the Dayton 
Accords, to create the Rambouillet Accords, and what sort of 
countermeasures must be subsequently employed.
    Three of the four signatories of the Dayton Accords--
Karadzic, Milosevic, and Tudjman--were indictable or indicted 
for war crimes. Karadzic and Milosevic were indicted; Tudjman 
died before the prosecutor said she was about to indict him. 
The two chief negotiators for Serbia at the Rambouillet 
Accords, Milutinovic and Sahinovi&agrave;c, were also both 
indicted for crimes against humanity.
    So, you have to bear in mind that, while we negotiate or 
the U.N. negotiates with these individuals to get to yes, to 
get a peace agreement, you are not going to find justice as 
part of the peace process, which is why you have these 
tribunals.
    And what we found in Sierra Leone, in the Ivory Coast, in 
Rwanda, in Cambodia, and in other places where there are 
tribunals, is you need a holistic approach. You need an 
accurate historical record, which the tribunals, but also truth 
commissions, non-amnesty-based truth commissions, help to 
provide. You need victim catharsis.
    So, in Rwanda, there was the genocide. The International 
Tribunal prosecuted nearly 60 individuals, but, then, you had 
local prosecutions and you had gacaca courts at the community. 
And over 100,000 individuals have been processed through the 
system that Rwanda created. So, the victims have their say. In 
a tribunal, it is the perpetrators who have their say. They are 
the ones on trial. Milosevic represented himself. But, in truth 
commissions or localized mechanisms, or these hybrid type of 
tribunals that the Specialist Chambers could be, you have the 
opportunity for victims' representation, victims' counsel.
    And then, you need memorialization and you need 
recognition, and it must be a comprehensive package. You have 
not had that in Kosovo. And that lesson has not been learned 
from all of these other tribunals that we have seen.
    So, negotiate peace with whoever you have to. Indict and 
hold accountable those responsible for atrocity crimes. And 
then, expand that mechanism and develop other mechanisms for 
victim catharsis, historical records.
    And importantly, as Madam President had noted, to deny 
collective guilt. And I was very careful in my testimony to 
talk about Serbian regime perpetrators because, although it is 
tens of thousands, it is not millions and it is not the entire 
Serbian population. And you need to identify and pull out those 
responsible, so that there is a denial of collective guilt and 
you can have reconciliation and durable peace.
    Mr. Chabot. Thank you very much.
    And, Mr. Chairman, my time has expired. If I could just 
thank the panel, again, for their tremendous testimony. And 
hopefully, we will, as a Nation, along with the world, act upon 
this. So, thank you very much.
    Chairman Engel. Yes, thank you, Mr. Chabot.
    Ms. Spanberger?
    Ms. Spanberger. Thank you, Mr. Chair.
    Thank you very much to the witnesses for being here. I 
especially want to thank you, Ms. Krasniqi-Goodman. Thank you 
for your testimony today. I appreciate you bringing a voice not 
just to your experience, but to the experiences of so many 
victims.
    And to Mr. Bytyqi, I am so sorry for the loss of your 
brothers Ylli, Agron, and Mehmet. Thank you for honoring them 
by being here today.
    I would like to continue the conversation a bit about the 
discussion related to the need for a Special Court. My area of 
interest is in recognizing that, in 2014, Kosovo law was 
amended to recognize victims of conflict-related sexual 
violence as war victims. And this made them eligible for 
reparations. However, thus far, only 1300 women have applied.
    I am curious if you believe that, were there to be a shift 
in the accountability process, the creation of this Special 
Court that you have talked about, Madam President, do you think 
that would change the pathway for victims of sexual violence to 
come forward, and would that have an impact on this catharsis 
that you, Dr. Williams, have spoken about as well?
    Ms. Jahjaga. Well, ma'am, absolutely, it will shift. As I 
said in the very beginning, the issue of the survivors of the 
sexual violence has never been the priority, neither for the 
international community immediately after the end of the war, 
neither for the provisional institutions of Kosovo. They have 
been living in the tremendous stigma from the society. And 
actually, that did not only happen with the survivors of sexual 
violence in Kosovo, but it happens in every past war, in past 
conflicts of societies. There is always a tendency of pointing 
the fingers toward the survivors rather than pointing the 
fingers toward the perpetrators.
    And it took for us about 13 years after the end of the war 
to be able to change the course and to be able to pass the 
necessary step for the survivors of the sexual violence to have 
institutional care, as you referred and I have already filed in 
my statement. By the creation of the National Council, which in 
a month after the work of the National Council, the legal 
status has been recognized toward all of the survivors of the 
sexual violence as the civilian victims of the war.
    The Committee for the Ratification of the Status of the 
Civilian Victims of the War has started its work in February 
2018. Until now, we have about over 1,000 applicants. And 
definitely, this has reflected indirectly, and in each and 
every survivor that I talk to them personally, before this 
process has started, about four or 5 years ago, will you be 
able to step forward and ask for your justice? And actually, 
they have been hesitating. But now has been created a totally 
different momentum that each and every one of them is willing 
to come forward.
    And as I said in the very first statement, no matter what 
kind of circumstances they live, no matter that they live in a 
very dire economic situation, the only word that is being 
spelled out continuously by each and every survivor--and we 
have heard today also by Vasfije--is that we want justice. We 
want the justice and we want to see whoever has done this 
horrendous crime to be faced with the justice.
    And by putting the focus on perpetrators, we also have seen 
that the stigma around the survivors has kind of like shifted 
in another direction that has been created, a different 
momentum. And this is happening today. It is going to be 
another momentum for the survivors of the sexual violence, for 
the justice that they have been lacking for about 20 years.
    And not to forget that we already lost so many of them. 
Some of them have left us. They died due to the consequences of 
what they have been going through.
    And so, many times when I have been arguing with many of 
the lawyers, with many of the prosecutors in the country, when 
it was a matter of the evidence, you do not need more evidence 
than the survivors of the sexual violence. In most of those 
cases, they were not done or they were not conducted alone. 
They were conducted in the presence of the family. They were 
conducted in the presence of the entire village. They have been 
conducted in the presence of the in-laws and a much wider group 
into that.
    So, evidences are there. Everything is ready. What we need 
is the proper platform and mechanism, such as a Special Court 
to be able to proceed and move forward to bring, for the first 
time after 20 years, the long-lasting peace in the hearts and 
minds in each and every survivor.
    Ms. Spanberger. Thank you, Madam President. And thank you 
so much for your advocacy on behalf of the people of Kosovo.
    And I am out of time, Mr. Chair. So, I yield back. Thank 
you.
    Chairman Engel. OK. Thank you very much.
    I am going to call on Mr. Zeldin in a moment. But, before I 
do that, I want to say to Mr. Bytyqi, I have had President 
Vucic of Serbia in my office twice right here in this building, 
and twice when I questioned him about your brothers, he 
promised me that he would have a solution for me where people 
who committed this heinous crime would be brought to justice. 
And both times he showed that his word means absolutely nothing 
because there was never a followup. And even when I tried to 
followup with him many, many months later, he gave me 
reassurances again, and, of course, nothing. So, it is pretty 
clear that the highest levels of the Serbian government are not 
willing to do anything. And I just saw him again for a third 
time in Germany a couple of months ago and raised it with him 
again, and we got the same old, the same old ridiculous 
dodging. It is really just disgraceful.
    And I know that Congressman Zeldin is your Representative. 
He and I wrote to Secretary Pompeo about your case and other 
post-conflict justice issues, and we are going to continue to 
be relentless when it comes to bringing back truth and getting 
some justice for you and your family and your brothers.
    Mr. Zeldin?
    Mr. Zeldin. Thank you, Mr. Chairman, for holding this 
hearing. And I can personally attest, from being with Chairman 
Engel in that meeting in Munich with President Vucic, and 
having many other conversations with the chairman and his team 
over the course of not just the last few months while he has 
been chair, but years, it is a very personal in a very positive 
way, laser-like focus on this issue. And I just want to thank 
the chairman and his team for making such a dedicated effort 
with a ton of follow-through.
    It is one thing to have a meeting with a constituent or 
someone in our country. They share a personal story, and maybe 
you forget about it in the weeks or the months that follow. But 
I think it is an important message. I know that President Vucic 
and his team pay attention to today's hearing. They are 
watching. It is an important message that they receive that, on 
both sides of the aisle, this issue is not going away. And if 
it is the 20th anniversary of what happened to the Bytyqi 
brothers and we are still here having this conversation, and 
they might have thought 5 or 10 or 15 years ago that, fast-
forward to 2019, that we would just stop talking about it. If 
you look around this entire room, there are not seats. They are 
plenty more people who would be filling these seats if we had 
them. And that should also send a powerful message to President 
Vucic and his team because they have goals for their country.
    And I believe, and I agree with what Mr. Bytyqi said, and 
what Ms. Goodman said, that justice absolutely must be part of 
any of those talks for a future relationship. For a Serbian 
relationship with the United States, it requires justice for 
the victims.
    This my third term serving in this committee, and I have 
heard a lot of personal stories on different topics for 
different nations around the world. I have to say that nothing 
was as emotional and gut-wrenching as listening to your story, 
Ms. Goodman, and your strength to be able to be here and to 
share that story with Congress and with the American people. It 
is a testament to your strength of character, and there is a 
lot of respect for you just to be here and be able to share 
those reflections with us.
    And I think it really highlights for all of my colleagues, 
as they read through House Concurrent Resolution 32, as they 
talk to their teams about what that text means, what the 
message means; that, hopefully, if they were not in this room 
to hear it, to replay the witness testimony from Mr. Bytyqi and 
Ms. Goodman especially, and sign on. We need every member of 
the House Foreign Affairs Committee to sign onto House 
Concurrent Resolution 32. We need every Member of Congress to 
be supportive of House Concurrent Resolution 32, and to send a 
powerful message beyond today to President Vucic and his team 
that all of their goals for what they want with their 
neighbors, what they want with a wider region, with the United 
States, it all requires, well, the demand and the insistence of 
the United States must include justice.
    In December 2018, the Department of State designated Goran 
Radosavljevic--it was under Section 7031(c)--due to his 
involvement in these war crimes. I am grateful that this 
designation was made by the State Department. Goran's name has 
been referenced in other meetings that have taken place with 
colleagues, and he is known to be a suspect in the murder of 
the Bytyqi brothers.
    And when Chairman Engel and I sat with President Vucic in 
Munich, it was explained that there has not been enough 
evidence in order to bring a prosecution. But the family wants 
their day in court. Based off the evidence that exists, the 
United States feels comfortable to make this designation back 
in December 2018. We have heard it acknowledged through people 
who have met with President Vucic in other settings, including 
Mr. Bytyqi was in the room when he heard it out of President 
Vucic's mouth, and others acknowledging that Goran is a 
suspect.
    So, what does that mean? Whatever evidence you have now, 20 
years later, it is time for a trial. It is time for a day in 
court. This issue is not going to go away. And for the sake of 
U.S.-Serbian relations, and for Serbian relations with their 
counterparts in their region, for everything that they seek, 
that justice is what this committee, hopefully, will continue 
to demand.
    And once again, thank you to Chairman Engel because I know 
that, as President Vucic watches today, he knows that on both 
sides of the aisle that we will not let this issue go. And that 
is the key. Justice is the key, and that is what the United 
States must continue to demand.
    And I yield back.
    Chairman Engel. Thank you, Mr. Zeldin.
    Mr. Gonzalez?
    Mr. Gonzalez. Thank you, Mr. Chairman.
    My question will be for Ms. Krasniqi-Goodman. Ms. Goodman, 
thank you for being here with us. Thank you for your courage 
and willingness to tell your story to the committee. I know 
that it cannot be easy, but I am sure what you are doing means 
a great deal for women not only in Kosovo, but around the 
world, especially the thousands we face sexual violence during 
war. And I want you to know that we all here deeply care what 
you are saying and what happened to you and many others, and we 
want to do all we can to help women in Kosovo to find justice.
    With that being said, I have a special question for you and 
for Mr. Bytyqi. Do you feel that, as United States citizens, 
our government has lived up to your expectations in how we 
should have sought justice for you at this moment in time? And 
what would you expect, if not that?
    Ms. Krasniqi-Goodman. Thank you.
    I have been a U.S. citizen for 13 years. When I was going 
through the trial with my case, all the trials available to me, 
the basic court, the appeals court, the supreme court. The 
United States did not do nothing for me, no, they did not, but 
neither did my country, Kosovo. So, they let me down. But I am 
hoping maybe now it is something that we can start working on 
to seek justice, if it is not for my case, at least for the 
other 20,000 men and women, because we do need justice.
    Mr. Gonzalez. Well, as my colleague on the other side of 
aisle suggested, we will never forget what happened, and we 
will continue to look for justice for you and others who have 
suffered these atrocities.
    And, Mr. Bytyqi, I would like to hear from you as well.
    Mr. Bytyqi. Thank you, Mr. Gonzalez.
    Yes, the U.S. could do more. They could put an amount of 
pressure and take swift and precautional measures that Serbia 
delivers justice to my brothers, not only for my brothers, but 
the rest of the victims of the Kosovo Albanian war crimes 
committed.
    As you know, before I stated that, when Congress speaks, 
Serbia listens. The only way is political pressure on Serbia. 
That is the only way Serbia will cooperate, no other way. They 
will promise you heaven, but they will not deliver. As you have 
heard Chairman Engel, he was promised a few times. My family 
was promised. Members of this committee were promised. Nothing, 
nothing.
    Instead of prosecuting the criminals, he holds them dearly 
to himself, close to his lobby. Practically, they work still in 
the government of Serbia. Criminals that killed my brothers are 
still in power in Serbian government.
    Thank you very much.
    Mr. Gonzalez. Thank you. Thank you. And I see you visibly 
shaken.
    And, Ms. Goodman, thank you for your courage to come and 
express so vividly what happened to us, because this is the way 
we learn and how we can continue this fight until the end, 
until we can finally bring those to justice.
    My next question is to Ms. Goodman again. You brought your 
case to the UNMIK and the and the EULEX, where no action, 
nothing was founded, and your case was taken up in the Kosovo 
court system with two Serb policemen indicted. And ultimately, 
the supreme court dismissed their case. Do you have plans for 
further legal action against your perpetrators any other way?
    Ms. Krasniqi-Goodman. Thank you.
    Yes, we do have plans maybe to go through the chain of 
command. That is my only option at this point.
    Mr. Gonzalez. But have you not reached the last place, 
being the supreme court of the country? Or are you saying the 
international community?
    Ms. Krasniqi-Goodman. The supreme court of my country, it 
is a closed case. Now they are going to go through the chain of 
command. They are going to reopen my case and go through the 
chain of command.
    Mr. Gonzalez. Well, I am very sorry the international 
community has failed you, and we, the United States, will 
continue pushing this to the end and we will not forget.
    Ms. Krasniqi-Goodman. Thank you.
    Mr. Gonzalez. And I yield back.
    Ms. Krasniqi-Goodman. We need your help. Thank you.
    Chairman Engel. Thank you.
    Mr. Smith?
    Mr. Smith. Thank you very much, Mr. Chairman, for convening 
this important hearing, and to our distinguished witnesses for 
bearing witness to an extremely ugly truth that still needs to 
be rectified in terms of accountability.
    And I do want to thank all of you. Dr. Williams, your 
testimony about the accountability gap--you know, during the 
conflict, I remember traveling to Stankovic and met with 
hundreds of refugees who were the lucky ones who made their way 
over the border to relative safety, but, obviously, so many 
others never were able to make that trek and suffered horribly 
under Slobodan Milosevic.
    And I think it is very timely, 20 years later, to be 
calling for all of the unmet needs when it comes to justice, 
which has not been served well. As you point out, the number of 
sexual assaults, about 20,000 individuals were the victims of 
conflict-related sexual violence, and that is almost a carbon 
copy of what happened in other parts of that region, 
particularly in Bosnia. I remember chairing a hearing with 
Bianca Jagger who had borne witness to exactly what was 
happening to Bosnian women, and the same happened to Croatian 
women. And still, there has yet to be a full prosecution of 
those who have committed these crimes. And this is a fresh 
reminder that we need to redouble efforts.
    If you could speak to the evidence that was gathered by 
UNMIK, which obviously disappointed in the extreme? Why were 
they so feckless in their work? And is that evidence still 
available?
    I mean, one of the things we learned in Srpska as well, 
Republican Srpska, was that one of the reasons why 
reconciliation could not happen is because people were living 
right next door to people who had committed atrocities, 
including in Srebrenica, and elsewhere.
    So, it is the same thing, obviously, in Kosovo. I wonder if 
you could speak to that evidence, whether or not it is still 
usable. I remember when the original court for the former 
Yugoslavia was constituted, all of us were concerned, and I 
actually offered an amendment on it to ensure that we captured 
that information, because you cannot do a prosecution 
effectively if you do not have actionable data and information. 
So, if you could speak to that, whether or not that information 
still could be used, eye witness accounts, for example?
    And again, I came a little late. So, I do not want to be 
redundant on other questions, but I will look at the record and 
go over your testimoneys very carefully.
    But thank you so much, and thank you, Mr. Chairman, for 
this hearing.
    Chairman Engel. Thank you.
    Ms. Omar?
    Mr. Smith. I think Professor Williams wanted to answer.
    Chairman Engel. Oh, I am sorry.
    Dr. Williams. If there is time permitting----
    Chairman Engel. There is time.
    Mr. Williams [continuing]. I would like to provide a brief 
answer.
    Chairman Engel. I jumped the gun.
    Dr. Williams. Thank you, Congressman Smith.
    On paper, you would hear that the files gathered by UNMIK 
were transferred to EULEX, and then, those would be made 
available to the Specialist Chambers. But you can sort of 
imagine your crazy uncle's garage and a filing system. And that 
is my fear, is that when these testimoneys were taken, when the 
witnesses' testimony was made available, the investigators for 
UNMIK/EULEX were not trained and did not prioritize conflict-
related sexual violence.
    There is an incidence where NATO troops took over 50 
testimoneys and provided them to UNMIK, and UNMIK essentially 
said, well, what do you want us to do with these? And the NATO 
forces are saying the victims are coming to us and telling us 
their stories; you need to get out there in the field and set 
up proper investigations.
    So, I think what you would find is that there are plenty of 
leads and there are plenty of witnesses willing to tell their 
story and to identify the perpetrators. And that is what is 
unique about Kosovo, is the deep, deep commitment of the 
victims to seeing justice be done, so that there can be 
reconciliation and they can live alongside their neighbors.
    It is going to need the resources that the Specialist 
Chambers has, and it is going to need the infrastructure that 
the Specialist Chambers has. And there are two things that are 
important about the Specialist Chambers. One is a comprehensive 
witness protection program, which, again, when you are talking 
about conflict-related sexual violence, that is very important.
    And then, second, they actually have a provision for 
victims' counsel. So, when you go to the court, there are the 
judges; there is the prosecution; there is the defense, and the 
victims actually have the third podium, so that they can be 
represented. And they can bring the evidence. They can ask 
questions. They can cross-examine. They can make submissions.
    So, it provides that role of the victims to basically 
rebuild the integrity of what is a failed justice process. 
Again, you can only do that if you clarify, reframe, and 
possibly amend the statute of the Specialist Chambers. But that 
is the only way you are going to get a durable peace in the 
Balkans.
    Thank you.
    Mr. Smith. Thank you, Mr. Chairman.
    Chairman Engel. Thank you, Mr. Smith.
    Ms. Omar?
    Ms. Omar. Thank you.
    I want to start by saying to Ms. Krasniqi-Goodman how much 
I admire your courage for coming here today and sharing your 
story. We could all visibly see how shaken you are and how much 
you are still being traumatized by what happened to you 20 
years ago.
    And to Madam President, so much of your testimony deeply 
resonates with me. Like both of you, I am a survivor of war.
    I particularly wanted to talk to you guys about the use of 
sexual violence and rape as a weapon of war, which you both 
spoke about in such clear and heartbreaking terms. As I am sure 
you know, the U.N. recently put a resolution on the use of rape 
as a weapon of war. It was severely watered-down at the 
insistence of the United States. This is outraged me, as it 
should outrage every American.
    In the first place, I want to assure you that the 
administration's position does not reflect that of the American 
people and does not reflect that of Congress, and it certainly 
does not reflect my position. As we continue to partner on 
justice mechanisms in Kosovo, you have allies in Congress on 
making such complete accountability. It is made not only for 
the survivors of war in Kosovo, but those around the world. And 
this concludes the complete range of necessary reparations, 
including access to sexual and reproductive health care for 
victims.
    Madam President, I am hoping that you could tell us about 
your experience in leading the effort in Kosovo, what is 
necessary to fully address the victims of sexual violence in 
war, and how the United States can tangibly help address this.
    Ms. Jahjaga. Madam Omar, thank you very much.
    And as I already mentioned also in my long statement filed 
for your information, we, as a country, as the institution, 
telling you this truth, we did not know how to handle with the 
issue of the survivors of the sexual violence for the 
continuous 13 years after the end of the war, due to the stigma 
and due to the taboo topic that was existing among our society.
    But the turning point for the status of the survivor has 
been in 2014 with the National Council of the Survivors of the 
Sexual Violence. We started the process of the rehabilitation, 
reintegration, resocialization, and access on the justice. Just 
1 month after the work of the National Council, the law for the 
war values has been amended, which has recognized the status of 
the survivors of the sexual violence as the civilian victims of 
the war, which automatically has guaranteed and granted the 
rise for the life-term pension, which is directly linked with 
their reintegration, rehabilitation processes that have been 
put already within the system, the legislative system of 
Kosovo.
    It is the budget has been also approved by the government 
of Kosovo last year, and we are in the process of the 
proceeding of the application through the verification 
committee approved by the government of Kosovo, which is a very 
slow process going, but we are very much satisfied because this 
will be another step forward on their continuous demand and the 
requirement for the access on the justice, which is also the 
precondition. Because with the application and the coming 
forward to speak about the atrocities that they have gone 
through, they would be able for the first time to share their 
stories, starting from the committee, but also which will 
indirectly empower the survivors to come forward and to seek so 
much needed justice that has been lacking for the 20 years 
after the end of the war.
    Madam Omar, we will never be able to offer our survivors 
with a full recognition, with a full reparation, or justice. 
But I am telling you the truth. That has been overdue for these 
past 20 years after the end of the war. And if we do not act 
now, which is the main reason why we are here today, to 
establish the necessary mechanism of the Special Court which 
will be exclusively investigation, investigating the war 
crimes, crimes against humanity, and include in there rape that 
has been used as a tool of war, this will be forever a burden 
and burning in our conscience, and we should not allow this. It 
has been enough happening for these past 20 years.
    Ms. Omar. Yes. Thank you so much for your presence and your 
testimony and the work that you are doing. It really speaks to 
the role women play in reconciliation and sort of helping 
communities we build, as we are storytellers, we are the 
revivals of our communities. And to you and to everyone who had 
suffered the horrific war in Kosovo, my heart is with you.
    Thank you. I yield back.
    Chairman Engel. Thank you, Ms. Omar.
    Mr. Burchett?
    Mr. Burchett. Thank you, Mr. Chairman, Ranking Member. I 
appreciate you all being here.
    I come from this at a little different angle, I guess. My 
father fought in the Second World War in the Pacific, and he 
visited, went back to one of the islands that he was on the 
invasion on, but the other one he did not. And as a child, I 
remember him telling me some of the horrific stories of things 
they found out that, in fact, I guess the Japanese were doing 
to the Koreans and these ladies that they had actually 
kidnapped. And my father was invited back for the anniversary 
of that invasion, and he would not go. Looking back on that 
now, I think I understand why, because of some of the horrific 
things he saw that were done to those folks at the hands of the 
Japanese.
    Do I call you President? Is that correct? I am going to try 
your last name, Jahjaga. Not close? Close? Close? I got it? All 
right. Well, thank you, ma'am.
    I am from east Tennessee. The chairman always thinks I am 
from his hometown in New York, but I am not, by my accent.
    [Laughter.]
    But I am concerned about the Serbians have such low 
political will, that that is political correct--I just think it 
is gutless--to investigate these war crimes. And what more can 
we do as a country, and I can, as a Congressman from Tennessee, 
do to put pressure on the Serbian government to bring some 
justice about?
    And the followup of that would be, is there any hope that 
we could have some cooperation between the law enforcement and 
the judicial institutions in Kosovo and Serbia? And I just 
throw that out to the panel. And, Madam President, if you want 
to take a shot at it, that would be great.
    Ms. Jahjaga. Mr. Burchett, thank you very much. And to tell 
you the truth, that was the closest ever I had on pronouncing 
on surname.
    Mr. Burchett. Well, thank you.
    Ms. Jahjaga. Well, you mention the word ``low political 
will''. If I may say, there is no political will at all. So 
far, we have not seen that to be shown or to be expressed by 
none of the leadership of Kosovo. On top of that, they have 
been using Kosovo and the crimes that they have done unjustly 
toward the innocent people of Kosovo for the political gains 
within their own country. And they are getting very easily off 
with that. And the world, the rest of the democratic world, it 
is not recognizing that, or it is allowing for Serbia to get 
off very easily with this matter.
    On purpose, I did mention that it is not our intention to 
create a monster out of one nation, like the people of Serbia. 
People of Kosovo have no problem with the people of Serbia. 
What we want is from the Serbian people, and from the Serbian 
leadership, to take the responsibility and to take for 
accountability, and to keep them accountable for the crimes 
that they have done unjustly toward the innocent people of 
Kosovo. It has been way too far, 20 years. We are speaking 
about 20 years' time.
    You mentioned an issue of the cooperation of the law 
enforcement and others. From somebody that has a law 
enforcement background myself, there is no cooperation 
whatsoever when we speak about the war crime cases.
    And do you want me to tell you that Serbia is continuing 
with their ongoing fight to stop Kosovo's membership in all of 
the international and regional organizations, including the 
INTERPOL and Europol? Just last year, Kosovo has been voted 
against the membership in INTERPOL, which is one of the basic 
international institutions for the cooperation on the matters 
of the rule of law. So, while Kosovo has shown readiness all 
the time, we have been always facing with the denials from 
Serbia to have whatsoever cooperation.
    And for the cooperation in the rule of law, we are not only 
speaking in the war crime cases; we are speaking also the day-
to-day cases, which are a handicap for Kosovo's progress. 
Because of the lack of the cooperation for Serbia, we have that 
level of organized crime and the corruption taking place in the 
northern part of Kosovo, which Serbia is keeping hostage or is 
controlling their parallel and illegal structures which are 
operating in the northern part of the country.
    Mr. Burchett. I yield back the remainder of my time, Mr. 
Chairman.
    Thank you, ma'am.
    Chairman Engel. Thank you, Mr. Burchett.
    Mr. Phillips?
    Mr. Phillips. Thank you, Mr. Chairman, and for your 
steadfast efforts relative to the Balkans generally and Kosovo 
particularly.
    And to each of our witnesses, and all of you that took the 
time to be here today. It makes a big impact on us.
    And I want to salute you, Ms. Goodman, and you, Mr. Bytyqi. 
Your stories deeply affect me, and perhaps most importantly, 
inspire me. And they say that sunshine it the best 
disinfectant. And now that we have illuminated the truth, I 
believe it is time to start paving the path to justice.
    To that end, the tools available to us are somewhat 
limited, but foreign aid is surely one of them. Yet, if we 
reduce foreign aid to Serbia, it likely pushes them closer to 
the Russian sphere. Yet, maintaining the status quo does 
nothing to inspire a change in attitude.
    So, my question begins with you, Dr. Williams. How do we 
address this conundrum? What leverage do you think might be 
available to us to affect or assert the pressure that is 
needed, particularly as it relates to how we use our foreign 
aid?
    Dr. Williams. Thank you, Congressman Phillips.
    We have an amazing ally in the Balkans, the State of 
Kosovo, the country of Kosovo. And so, oftentimes, when we 
think about influencing a State's behavior, we will think about 
what type of sanctions we might put on Serbia, what type of 
limit on aid, what type of truth, sunlight we can bring to 
bear.
    But I think it is also important to remember that we need 
to have Kosovo's back. They are trying to become a member of 
INTERPOL. They are trying to become a member of the United 
Nations. They adopted this Specialist Chambers with this 
distorted mandate. They are contemplating reframing it and 
reshaping it.
    The United States needs to double down on its support for 
those things that the government of Kosovo, the country of 
Kosovo, is doing to try to pave the path toward justice. So, 
there are a number of mechanisms that the U.S. Government has 
in its toolkit to pressure countries. But here you have a case 
where there is a country you can work very closely and very 
effectively with, and we have a long history and, quite 
frankly, a special relationship with the country of Kosovo. And 
that would be where I would encourage the U.S. Government to 
put its energy to work to bring about a sense of justice for 
the victims and to put its resources in that direction.
    Mr. Phillips. Thank you, Dr. Williams.
    Madam President, if you might opine on the same question?
    Ms. Jahjaga. Mr. Williams was very right that the United 
States actually has no stronger ally than Kosovo and the 
Albanian people, the entire region of the southeastern part of 
Europe. And the United States can help to affect the truth and 
justice in your foreign policy with Serbia, and that has to be 
one of the priority requirements. It has to be part of the 
foreign policy of the United States toward the neighboring 
country, our neighboring country of Serbia.
    And use every mechanism possible that the United States and 
this committee can do to make pressure for the establishment of 
the Special Court or defining the new mandate and the mission 
of the already-existing Special Court to include also the 
crimes committed against Albanians.
    Mr. Phillips. Thank you, Madam President.
    Before I yield back my time, I just remind everybody that 
we must be relentless. It is never a time to give up. And I 
think over time, if each of us with the same end game in mind 
worked together in a bipartisan fashion on this side, and all 
of you collectively, we will see the change that we desire.
    I yield back my time.
    Chairman Engel. Thank you, Mr. Phillips.
    Mr. Vargas?
    Mr. Vargas. Thank you very much, Mr. Chair. I kind of knew 
you before I got here because of the family that lived with us. 
We were very fortunate in that, when we were seeing what was 
happening with the atrocities in Kosovo, my wife and I decided 
to adopt a family from Kosovo. And so, we did. And so, the 
family lived with us for 2 years: Brahim, Sevdie, Lirije--
although she writes it ``Lareege''; we used to teach her that 
it was ``Lareege,'' but it is Lirije, and Blerina. So, they 
lived with us for 2 years.
    They were from a place called Podujevo--at least that is 
how I pronounce it--not from Pristina because so many people 
that I met later on were from Pristina. And so, I heard of all 
the atrocities, all the terrible things. But I also heard of 
Mr. Engel because of all the work that you did and, in 
particular, Bill Clinton. When I had a picture of Bill Clinton, 
they were very excited to see that.
    But I have to say they live in San Diego now. They are 
doing extremely well. One of the daughters, she is the person 
who runs, the manager of a Wells Fargo branch. The other one is 
in college still. Both the husband and the wife are doing 
extremely well. He is like my seventh brother. I have six 
brothers. He is like the seventh, and she is like the fourth 
sister that I have. They are wonderful, wonderful human beings 
and people, and we love them deeply.
    But the atrocities that they saw, thank God that they 
avoided many of them, although their life was very difficult. 
They went to Macedonia. From Macedonia, they were airlifted to 
Fort Dix, New Jersey. And from Fort Dix, New Jersey, they came 
to our house in San Diego. And again, they lived with us for 
almost 2 years.
    But I am horrified that we have not done more on these war 
crimes. And one of the things that was interesting to me, I 
always used to ask Brahim, I said, ``How did you live before? 
Were you always fighting?'' He said, ``No, it was amazing.'' He 
said that, ``Neighbors that we knew were turning us in, saying 
that these are Muslims, these are Kosovars, people that we had 
known forever that were our friends, how they turned against 
us.'' And some of the people had committed atrocities. And that 
we have not been able to bring these people to justice is I 
think a real travesty.
    So, Dr. Williams, I would like to ask you, I mean, I 
thought that the tribunal was going to work better, frankly, 
and it has not. And why is that? I mean, we know that the 
crimes are there. I have been listening to all the testimony. 
Crimes are there. The victims are there. The evidence is there. 
It seems like the will is not there. What do we need to do, Dr. 
Williams? Because I think we have to have a better resolution 
than we have today.
    Dr. Williams. Thank you, Congressman Vargas.
    The difficulty with the Specialist Chambers, the tribunal, 
is that it has a distorted origin. It came about because there 
was this misperception that there had not been justice for all. 
But, as we have seen in the testimony, the Yugoslav Tribunal, 
and then, the EU and the U.N. domestic tribunal, bent over 
backward to pursue moral equivalency, to create all sides 
equal. And then, somehow this court popped about to prosecute 
ethnic Albanians associated with the Kosovo Liberation Army, 
and there was not the thought or the need to perceive how it 
would become distorted as it was implemented.
    That said, it is an internationalized tribunal. It is a 
Kosovo tribunal, but it is a hybrid and it is based in The 
Hague. And you can read the statute to actually provide 
accountability for all of the perpetrators and justice for all 
of the victims, but there has not been the political will to do 
that.
    When you look at the public statements of the European 
officials or those that comment on the court, they still echo 
the perception that it is an ethnically based tribunal just 
focused on the Kosovo Albanians. It is legally incorrect, but, 
as a lawyer, I can tell you that does not really matter.
    Mr. Vargas. Right.
    Dr. Williams. It is the public perception of the diplomats. 
And that is why you need a counter-narrative. All perpetrators 
should be held accountable. All victims should have access to 
justice.
    And this tribunal, which is a state-of-the-art tribunal and 
has learned lessons from a dozen other international hybrid 
tribunals, is the place to go.
    Mr. Vargas. Well, I hate to say it, but my time is almost 
up. But I have to tell you, I mean, there is no moral 
equivalency here. Most of the atrocities were committed by the 
Serbs against the Kosovars. I mean that is reality.
    And so many of the people who committed these horrible 
crimes, you have heard, have not been brought to justice. And I 
think we have to figure out a way to put more pressure on, not 
only to have the back of our friends, but also those that 
committed these crimes, sure, we need to apply more pressure to 
bring these people to justice.
    President, yes?
    Ms. Jahjaga. Mr. Vargas, if I may, because Dr. Williams has 
mentioned that there has not been a political will. It is true; 
it has never been a political will. And to tell you the truth, 
there is never a political will from none of the parties, would 
be the political will, if there is no sufficient pressure 
coming from the bodies which are required. And that is what we 
are requiring from you, the necessary pressure and the 
mechanisms to be used toward Serbia to hold them accountable 
and to moving in that direction, to keep them--to build in this 
political will, as they are supposed to have from day one.
    Mr. Vargas. Thank you, and I agree with you completely. 
Thank you.
    Thank you, Mr. Chairman. Thank you.
    Chairman Engel. Thank you, Mr. Vargas.
    I want to just take a prerogative to comment on something 
that Dr. Williams had mentioned. And that is that you would 
think that, 20 years later, we would have been more down the 
line; we would have accomplished more; we would have done more.
    And President Jahjaga said it as well. It is really 
disappointing that the political will of the rest of the world 
has not really been there. It is just unbelievable.
    And, if you go to Kosovo, there is no more pro-American 
country than Kosovo. You get stopped in the street by 
strangers. They know we are Americans. They want to be part of 
us. They want us to be part of them. And I just think the 
people of Kosovo deserve so much more.
    Mr. Sherman?
    Mr. Sherman. Mr. Chairman, we have served on this committee 
together for 23 years. And during those 23 years, I have seen 
your dedication to the innocent victims in Kosovo. And I have 
seen other Members of Congress get involved in a particular 
issue or focus on a particular part of the world, but I have 
never seen any of our colleagues put their head and their heart 
into a human rights issue as you have for the people of Kosovo.
    I had the opportunity to visit the refugees 20 years ago, 
and it is appropriate to have this hearing now, not because 
something happened 20 years, but because of what is continuing 
to happen, and more importantly, not happen.
    I want to say a few words of praise for the United States. 
As we have learned today, America can do more, should do more, 
must do more. But, looking around the world, America is 
depicted as a nation that will always take a position against 
people or nations that are predominantly Muslim or of Muslim 
heritage. But, in fact, no nation did more to protect the 
people of Kosovo, of all religions, a nation of predominantly 
Muslim heritage. No nation did more to protect the Bosniaks and 
the people of Bosnia. And chairing the Asia Subcommittee, no 
nation is currently doing more for the Rohingya and for the 
Uighur. Now we need to do more, but the world, especially the 
Muslim world or the countries that are predominantly of Muslim 
heritage, need to understand America's role and that others 
have not done as much. Of course, we bombed Serbia twice, once 
for to protect the people of Kosovo and once to protect the 
people of Bosnia.
    I will ask all the witnesses, but starting with Dr. 
Williams, what specific steps should the United States take to 
help the country of Kosovo? And particularly focus on how do we 
get Kosovo into INTERPOL. That just makes us all less safe. If 
you are in favor of crime, then you want to keep countries out 
of INTERPOL. What argument is there to exclude them, and what 
pressure can the United States put on that one issue and other 
issues? And then, we will turn to Madam President.
    Dr. Williams. Thank you, Congressman Sherman.
    The United States has tremendous leverage when addressing 
questions of the former Yugoslavia and, in particular, Kosovo. 
As you noted, the Americans, through NATO, led the humanitarian 
intervention to stop the violence and atrocities in Kosovo. It 
was the American airplanes which were doing the no-fly zone 
over Bosnia and engaged in the airstrikes to protect the people 
of Bosnia, as well as the U.N. peacekeepers.
    Even 20 years later, the United States has tremendous moral 
authority when it comes to addressing issues in the Balkans. 
And it is appropriate for the United States to draw down on 
that moral authority when insisting that Kosovo become a member 
of INTERPOL, when seeking to promote its membership in the 
United Nations.
    Kosovo is recognized by over 100 countries, but is not a 
member of the U.N. And so, this has some consequences for its 
ability----
    Mr. Sherman. But is there a particular strategy, Madam 
President, that we should use with regard to INTERPOL, the 
U.S., or other international organizations?
    Ms. Jahjaga. Congressman Sherman, thank you very much.
    And first of all, I want to express our deepest thanks and 
gratitude on behalf of all people of Kosovo for the great 
support and the help that we have been getting from the people 
of the United States of America and from institutions of the 
United States of America. We would not be able to come this far 
the way we have come if we did not have you alongside with us, 
which we appreciate that a lot.
    Kosovo, all of the progress that we have done so far, we 
have done in the coordination and in the close collaboration 
with all of our allies, starting from the United States of 
America. Not only Kosovo, but the entire region, is the 
investment and the cooperation between the countries and 
between the Western countries.
    But, somehow, we are in the halfway, that we need, if I may 
use the term, the final push in order to be in the other half, 
that we do not endanger any of the processes or any of the 
progress of sliding back that we have jointly invested so much 
in this past two or three decades.
    You have referred to the composition of Kosovo. Actually, 
Kosovo is a very multi-ethnic and a multi-religious community 
where all of the community groups have been living together for 
the past several of the decades. To tell you the truth, that 
has been one of the biggest strengths, that we have been able 
always to buildupon that; that none of that has been the reason 
why the war has started in Kosovo, but the reason has been for 
the power struggle and for the egos of certain political gains 
which within the night that turns their neighbors into the 
enemies in there.
    And so, Kosovo, in all of its initiatives, no matter being 
a member State of the regional organization or the 
international organizations, started from the United Nations. 
So far as Dr. Williams has mentioned, we have been recognized 
by over 110 countries around the world. We are closely 
operated----
    Mr. Sherman. Is there any particular thing we could do----
    Ms. Jahjaga. Yes.
    Mr. Sherman [continuing]. At INTERPOL to press them in the 
right direction?
    Ms. Jahjaga. We are closely cooperating and there is a 
strategy in place by the government of Kosovo, which we have 
shared with all of the authorities here and with other allies, 
what has to be supported.
    But the priority thing is to kind of like make that 
necessary pressure toward Serbia, toward all of their 
supporters, like Russia and China and other countries, to not 
use the veto against the Kosovo in every single thing, because 
they are not only harming Kosovo, but they harming, also, other 
processes which are related to the safety and the security of 
our citizens in the entire region of the southeastern part of 
Europe.
    Chairman Engel. Thank you, Mr. Sherman.
    Let me, in conclusion, say that this was a very excellent 
hearing. I think that a lot of points were raised, and I think 
the whole situation is there. It is going to, obviously, be 
broadcast all across the country on C-SPAN.
    And anything that we can continue to do to draw light on 
the fact that this was 20 years ago, and the people have still 
not seen justice.
    I wanted to just add one thing, and that was not only has 
Serbia kept Kosovo out of INTERPOL, but also out of other 
agencies as well. And it seems to me that, if we are talking 
about ascension to the European Union by both Kosovo and 
Serbia, that it shows an incredible amount of bad faith on the 
Serbian part for them to continue to block, or attempt to 
block, Kosovo from becoming part of these important 
organizations. It shows very bad faith, and I think we have to 
talk about that more and more.
    So, let me conclude by saying this has been a very 
important and enlightened hearing. I think that the issues have 
all come out.
    I want to thank our panelists. All four of you were really 
excellent and really brought home another aspect of why it is 
so important for us to act now.
    And I want to tell you that I have gone around the world, 
but Americans will not be greeted better in any place in the 
world than in Kosovo. Truly, the country has a love affair with 
Americans, and I have had a love affair with Kosovo.
    So, I want to thank all the people who made their way here 
from New York and other places.
    I want to thank our witnesses, President Jahjaga, Dr. 
Williams, Mr. Bytyqi, and Ms. Krasniqi-Goodman. Thank you so 
much. And we will continue to seek justice for all the people 
who deserve it. Thank you.
    The hearing is now closed.
    [Whereupon, at 12:20 p.m., the committee was adjourned.]

                                APPENDIX
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD BY CHAIRMAN ENGEL
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
